Oversight Review      January 25, 2008

   Report on Quality Control Review
      of FY 2006 Single Audit of
    Syracuse Research Corporation


       Report No. D-2008-6-002
  Additional Copies

  To obtain additional copies of the final report, visit the Web site of the Department of
  Defense Inspector General at www.dodig.mil/audit/reports or contact the Office of the
  Assistant Inspector General for Audit Policy and Oversight at (703) 604-8760 or fax (703)
  604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
  fax (703) 604-9808. Ideas and requests can also be mailed to:

                                        OAIG-APO
                          Department of Defense Inspector General
                            400 Army Navy Drive (Room 1016)
                                Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098;
  by sending an electronic message to Hotline@dodig.mil; or by writing to the Defense
  Hotline, The Pentagon, Washington, DC 20301-1900. The identity of each writer and
  caller is fully protected.




Acronyms
DCAA         Defense Contract Audit Agency
GAS          Government Auditing Standards
OMB          Office of Management and Budget
PWC          PricewaterhouseCoopers, LLP
SRC          Syracuse Research Corporation
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704




                                                                              JAN 25 2008
Chief Financial Officer
Syracuse Research Corporation

Audit Committee
Syracuse Research Corporation

Defense Contract Audit Agency

Partner
PricewaterhouseCoopers, LLP

SUBJECT: Report on Quality Control Review of FY 2006 Single Audit of Syracuse Research
         Corporation (RepOlt No. D-2008-6-002)

       We are providing this report for your information and use. As the cognizant Federal
agency for the Syracuse Research Corporation (SRC), we perfonned a review of the Defense
Contract Audit Agency (DCAA) and PricewaterhouseCoopers, LLP (PWC) single audit and
supporting workpapers for the fiscal year ended September 30, 2006, to detennine whether the
audit was conducted in accordance with Govemment Auditing Standards (GAS) and the auditing
and reporting requirements of Office of Management and Budget (OMB) Circular A-133,
"Audits of States, Local Govenunents, and Non-Profit Organizations," (OMB Circular A-133).
Appendix A contains additional background, scope and methodology for the review and
Appendix B lists the compliance requirements applicable to the FY 2006 single audit.

Background. SRC is an independent, not-for-profit research and development corporation
chartered by the State of New York. SRC provides services mainly to federal govenunent
organizations in a wide mTay of teclmology areas, including development of sensor systems,
signal processing, information science and engineering, operational integration and
enviromnental chemistry and tisk assessment. SRC has offices in ten locations, along with
numerous customer support sites tlu-oughout the United States and is headqumtered in Syracuse,
New York. SRC expended $122.8 million in Federal awards for the fiscal year ended
September 30, 2006 under one Federal program, the Research and Development Cluster. Of the
$122.8 million, $113.7 million was expended for Depmtment of Defense programs.

Review Results. The DCAA auditors did not comply with OMB Circular A-133 requirements,
auditing standards, and DCAA guidance when performing and documenting the FY 2006 single
audit. Consequently, the audit work did not provide sufficient evidence to SUppOlt the auditors'
conclusions on SRC's intemal control over compliance and compliance with requirements
applicable to the Research and Development Cluster. Because of the deficiencies identified in
our review, additional audit work was needed before Federal agencies could rely on the audit to
manage Federal award programs.

As a result of our discussions with DCAA throughout our site visit, DCAA took immediate
corrective actions on the deficiencies cited in this report. During the period September 4, 2007
to October 4, 2007, the DCAA provided our office with documentation and verbal explanations
of additional audit procedures performed. The supplemental audit work generally complied with
OMB Circular A-133 requirements and supported the audit conclusions on internal control and
the opinion on compliance with Federal requirements. Therefore, Federal agencies can rely on
the FY 2006 single audit report to monitor and manage their programs. The results of our review
and DCAA corrective actions are discussed in the Finding below.

The PWC audit of the financial statements met auditing standards and OMB Circular A-133
requirements. During our exit conference with PWC, we discussed opportunities for future
enhancements to audit documentation. These enhancements are discussed in the “Other Matters
of Interest” section of this report. SRC complied with OMB Circular A-133 reporting
requirements.

DCAA Management Comments and DoD IG Response. DCAA concurred, or concurred in
principle, with our recommendations and agreed to take corrective actions that satisfy the intent
of the recommendations. DCAA also provided comments that addressed their position on our
finding and conclusion. Management comments and our responses are discussed in the Finding
and Recommendation sections and are included in their entirety at the end of this report.


Finding
Performance and Documentation of the Federal Program Audit. The DCAA auditors did
not adequately perform and document the single audit of the SRC major Federal program in
accordance with OMB Circular A-133 requirements, GAS, and DCAA guidance. As a result,
there was insufficient evidence to show that the audit procedures addressed the objectives of five
of the ten compliance requirements: Equipment; Period of Availability; Procurement,
Suspension, and Debarment; Subrecipient Monitoring; and Special Tests and Provisions. In
addition, because of inadequate documentation we spent considerable time obtaining verbal
explanations and reviewing other DCAA audit assignments to conclude that there was sufficient
evidence to support the audit conclusions on four additional requirements: Activities
Allowed/Unallowed, Allowable Costs/Cost Principles, Cash Management, and Reporting.

OMB Circular A-133 requires the auditor to obtain an understanding of internal control, plan the
testing of controls, and perform the planned testing for each applicable compliance requirement.
The auditor uses the results of the review of internal control to plan the nature and extent of
compliance testing to determine whether the auditee has complied with laws, regulations, and the
provisions of contracts or grant agreements that may have a direct and material effect on its
major programs.



                                                2
Government auditing standards and DCAA policies and procedures require that sufficient detail
be included in the audit documentation to provide an experienced auditor who has had no
previous connection with the audit to ascertain from the documentation the evidence that
supports the auditors’ significant judgments and conclusions. Audit documentation should be
appropriately detailed to provide a clear understanding of its purpose and source and should be
appropriately organized to provide a clear link to the findings, conclusions, and
recommendations.

        Performance of Internal Controls and Compliance Testing. The DCAA auditor did
not adequately perform the audit to support the conclusions on internal controls and compliance
with Equipment; Period of Availability; Procurement, Suspension, and Debarment; Subrecipient
Monitoring; and Special Tests and Provisions requirements. During our site visit, we requested
the auditor provide additional explanation and support for the audit procedures performed;
however, the auditor was unable to provide additional information to mitigate the deficiencies
identified.

               Equipment Compliance Requirement. The DCAA auditor did not document
an understanding of internal control processes or perform procedures to determine SRC internal
control over and compliance with Equipment compliance requirements. The objectives of this
requirement include verifying that the organization maintains proper records, adequately
safeguards and maintains equipment, and disposes of equipment in accordance with Federal
requirements.

The only documentation to support the testing of internal control and compliance was a copy of
SRC’s Government equipment list and a cross-reference to another DCAA annual audit where
the objective was to test for the need and use of material purchases. The Government equipment
listing was 138 pages and the work papers did not identify the transactions reviewed or the tests
performed. We also reviewed the referenced material purchases audit even though the stated
objectives of that audit are not focused on equipment management. While the work papers stated
that the auditor verified that items were properly identified as government equipment, the
documentation did not identify the equipment tested or explain what criteria was used to
determine that government equipment was properly identified. For compliance testing, the
attributes tested addressed the material purchase audit objectives but were not relevant to testing
for compliance with equipment management requirements.

                Period of Availability Compliance Requirement. The DCAA auditor
developed an understanding of internal controls, but the documentation did not include evidence
to support the testing of controls or compliance testing performed to ensure that charges to
Federal awards resulted from obligations incurred during the funding period. The documentation
did not provide an audit trail between the description of internal controls, the controls to be
tested, and the evidence of testing performed. The understanding of internal control identified
multiple controls but the auditor did not state which controls they planned to test. The auditor
referenced multiple work papers to support the testing of controls, but the work papers did not
include sufficient information to discern what controls were tested or the procedures performed.
The auditor planned to test compliance with this requirement, but did not include sufficient
evidence to support the testing performed. For example, the auditor stated that billings were


                                                3
reviewed to verify if any costs were outside the period of performance and that period of
availability was tested during the direct cost transaction testing. However, the work papers did
not identify specific billings reviewed and the direct cost transaction testing did not identify
period of availability requirements.

                Procurement, Suspension, and Debarment Compliance Requirement. The
DCAA auditor developed an understanding of internal controls and identified key controls for
testing. However, the referenced documentation did not include evidence to support the planned
testing of controls or compliance testing performed to obtain assurance that procurements
provide for full and open competition, documentation exists to support the rationale to limit
competition, cost or price analyses are performed, and verification that procurements and
subawards are not made to suspended or debarred parties.

The auditor planned to test multiple controls, but the documentation only addressed testing for
approvals. However, the documentation was not specific on which approvals were tested. For
compliance testing, the DCAA auditor planned to test seven subcontractors to determine if they
were suspended or debarred; however, the referenced documentation did not address suspension
and debarment testing at all. In addition, there was no evidence of compliance testing for the
other procurement objectives of this requirement.

               Subrecipient Monitoring Compliance Requirement. The DCAA auditor did
not include evidence to support the planned testing of internal control or compliance to support
their opinion on compliance. The objectives of this compliance requirement include determining
whether the pass-through entity properly identified Federal award information and compliance
requirements to the subrecipient, monitored subrecipient activities to provide reasonable
assurance that the subrecipient administered Federal awards in compliance with requirements,
ensured required audits were performed, and took the required actions on audit findings.

The auditor planned to test multiple controls but not all of the controls related to the objectives of
this requirement. In addition, the audit procedures were not applied consistently to all selected
items and the documentation did not include sufficient information to determine the specific
nature of the testing performed. For example, the auditor referenced a work paper with
approximately 80 subcontracts to perform testing for this requirement, including the test to
determine the flow down of contract clauses. However the work paper indicated that this
specific test was only performed on one sample item. In another instance, the documentation
stated that monitoring was reviewed but did not identify the specific monitoring actions tested.
The auditor did not identify any specific procedures performed for compliance testing and did
not indicate if the internal control testing was intended to serve as a dual-purpose test of internal
control and compliance.

               Special Tests and Provisions Compliance Requirement. The DCAA auditor
did not adequately document an understanding of internal control processes or include evidence
on procedures performed to determine SRC internal control over and compliance with the
Special Tests and Provisions requirement. The DCAA auditor documented the key personnel
clause as the only special test and provision included in SRC contracts. The objectives of the
key personnel requirement, as described in the OMB Circular A-133 Compliance Supplement,


                                                  4
include determining whether SRC adhered to key personnel commitments specified in the
proposal and obtained Federal awarding office approval for any changes of key personnel.

The auditor identified multiple controls that were generic for procurement and subcontract
management. However, it was not clear how these controls satisfied the objectives related to key
personnel requirements and the documentation did not include sufficient information on the
testing of controls to show the relevance to key personnel requirements. For compliance testing,
the auditor stated that they verified that the rates used for billing purposes were the rates included
in the contracts. However, the work papers did not contain any evidence of this testing. In
addition, it was not apparent how this verification would support the objectives related to key
personnel requirements.

               DCAA Corrective Actions. Based on discussions throughout our site visit,
DCAA performed additional audit procedures prior to issuance of our draft report to correct the
deficiencies we identified in the audit of the Equipment; Period of Availability; Procurement,
Suspension, and Debarment; Subrecipient Monitoring; and Special Tests and Provisions
compliance requirements and provided supporting documentation for our review. Based on our
review of the documentation and additional verbal explanations provided by the DCAA auditor,
we consider the DCAA corrective actions sufficient. However, we did identify and discuss with
the DCAA auditor further enhancements to audit documentation for future single audits.

        Documentation of Internal Controls and Compliance Testing. The DCAA auditor
did not adequately document the review of internal controls and compliance testing on the
Activities Allowed/Unallowed, Allowable Costs/Cost Principles, Cash Management, and
Reporting requirements. As a result of the inadequate documentation, we spent considerable
time obtaining verbal explanations from the auditor on the procedures performed, reviewing
audit assignments, and reviewing the SRC policies and procedures, to enable us to determine
whether there was sufficient evidence to support DCAA audit conclusions. Based on our
additional effort, we were able to conclude that there was sufficient evidence to support the
auditor’s conclusions on the following compliance requirements.

                Activities Allowed/Unallowed and Allowable Costs/Cost Principles. While
the DCAA auditor documented an understanding of the internal control processes, the
documentation did not include the source for all controls identified. The auditor also did not
clearly identify the controls they planned to test, provide an adequate audit trail to the internal
control testing performed, or include sufficient evidence to support the testing of controls and
compliance testing performed. For example, the auditor referenced an audit assignment for
testing of controls but did not specify what controls were being tested or if the auditor identified
controls they did not consistently indicate where the testing was performed. The documentation
also did not include sufficient information to be able to discern the evidence reviewed to support
the auditor’s conclusions on internal control over and compliance with this requirement.




                                                  5
               Cash Management. The DCAA auditor identified multiple controls but did not
focus the review of internal control on controls relevant to Cash Management requirements
applicable in SRC’s cost reimbursement environment. The auditor did identify one control
relevant to SRC’s environment, but did not adequately document the testing performed.

                 Reporting. The documentation in the audit was not adequate to support the
auditor’s opinion on the Reporting compliance requirement. The DCAA auditor determined that
only one contract had a reporting requirement and limited the testing of controls and compliance
testing to this one contract. However, during our site visit, we reviewed copies and extracts of
contracts in the audit files and identified multiple contracts that contained reporting
requirements.

        Documentation of Other Areas. The DCAA auditors did not include adequate
documentation in accordance with GAS and DCAA policies and procedures to support the
conclusions reached on non-applicable compliance requirements, the low risk auditee
determination, the Schedule of Expenditures of Federal Awards, or the coordination with DCAA
Field Detachment. However, based on extensive discussions with the DCAA auditor, review of
prior A-133 audit reports, and additional supporting documentation provided during our site
visit, we were able to conclude that there was sufficient evidence to support the auditor’s
conclusions.

        Conclusion. The DCAA audit, as originally performed, did not meet the requirements
of OMB Circular A-133, the related Compliance Supplement, GAS, and DCAA guidance. As a
result, we spent considerable time reviewing additional audit assignments and discussing work
paper content with the DCAA to make our determinations on the adequacy of the audit work.
The DCAA also spent additional time supporting and re-performing the audit work. In addition,
prior quality control reviews of DCAA single audit work identified similar deficiencies in the
performance and documentation of audit requirements. See Appendix A for further details on
the prior quality control reviews. Because of the deficiencies discussed in this report and in the
prior quality control reviews, we conclude that additional supervision and training is needed for
auditors performing single audits to ensure compliance with GAS and OMB Circular A-133
requirements.

        DCAA Management Comments on the Finding. DCAA management agreed that the
sufficiency and level of documentation in certain areas of internal controls and compliance
testing could have been improved but they believe the audit was substantively conducted in
accordance with OMB Circular A-133 requirements, GAS, and DCAA guidance. DCAA also
stated that there was evidence of supervisory and branch manager review in the working papers
and they believe the audit received an adequate level of supervisory involvement considering the
knowledge and experience of the staff and the complexity of the audit.

       DoD IG Response. We disagree with the DCAA position that the audit substantively
complied with OMB Circular A-133 requirements, GAS, and DCAA guidance and was
adequately supervised. DCAA did not provide any new information to support their comments
that would cause us to change our conclusion. As discussed in the Finding, the working papers


                                                6
did not include sufficient details or a clear audit trail for us to determine the procedures
performed and the evidence obtained to support the auditor’s judgments and conclusions. The
working papers did not always address the objectives of the requirement reviewed and they did
not clearly identify the items being tested or the actual testing performed for internal control and
compliance. As a result, we were unable to ascertain from the documentation the evidence that
supported the auditors’ significant judgments and conclusions. The quality issues disclosed
during our review indicate the lack of an appropriate level of supervisory review to ensure that
the working papers provide sufficient evidence to support the audit findings and conclusions.

Recommendations, Management Comments, and
DoD IG Response
Recommendation 1.                       We recommend that the Director, Defense Contract
Audit Agency:

         a. Ensure that personnel planning, directing, performing field work, or reporting
            on single audits receive formal training so that future audits comply with the
            audit requirements of the Office of Management and Budget Circular A-133.

         b. Require regional management to establish an appropriate quality control
            monitoring process for Office of Management and Budget Circular A-133
            audit reports and work papers to ensure that future single audits comply with
            Government auditing standards and the audit requirements of the Office of
            Management and Budget Circular A-133.

DCAA Headquarters Comments. DCAA concurred with Recommendation 1.a. DCAA will
re-emphasize the training requirements in guidance to be issued by February 2008. In FY 2008,
DCAA is also planning to hold a workshop to cover new guidance on A-133 audits and to
address issues raised in this review. DCAA concurred in principle with Recommendation 1.b.
DCAA plans to review each region’s quality control instructions and assess the need for
additional procedures to specifically cover A-133 audits. DCAA estimates their assessment will
be completed by February 28, 2008.

DoD IG Response. We request that DCAA provide us with the estimated date of the single
audit workshop and also provide a detailed agenda prior to the workshop. We accept the DCAA
proposed action for Recommendation 1.b as meeting the intent of the recommendation. DCAA
should provide us with the results of their assessment once completed.

Recommendation 2.                     We recommend that the Branch Manager, Defense
Contract Audit Agency, Upstate New York Branch Office, ensure that personnel working
on Office of Management and Budget Circular A-133 audits are monitored and supervised
to ensure that future single audits meet the objectives of the Office of Management and
Budget Circular A-133 audit and include adequate documentation in accordance with
Government auditing standards.


                                                 7
DCM Northeastern Region Management Comments. DCAA concurred with the
reconunendation. The Branch Manager will address the areas noted in tllis review as patt of
performing future A-I33 audits. Representatives of the branch office will also attend the DCAA
FY 2008 A-I33 workshop which will address the issues raised in this review.

Other Matters of Interest. The PWC audit documentation included sufficient evidence to
support their audit conclusions on the financial statements. However, for future single audits, we
suggest that PWC enhance links to the audit steps related to testing of laws, regulations, and
contract terms that have a material effect on the financial statements and to all audit steps
perf01111ed for the consideration of fraud.

We also suggest in future single audits that SRC ensure that the DCAA auditors and the financial
statement auditors fOl1nally coordinate in the audit pl31ming process to achieve a comprehensive
and cost-effective audit in accordance with GAS and OMB Circular A-B3.

        We appreciate the courtesies extended to the audit staff. For additional infol1nation on
this report, please contact Ms. Janet Stern at (703) 604-8750 or Ms. Carol Vogler at (703)
604-9657. See Appendix C for the repOlt distribution.




                                            ~B~~
                                             Acting Assistant Inspector General
                                              for Audit Policy and Oversight




                                                 8
Appendix A. Quality Control Review Process

Background, Scope and Methodology
The Single Audit Act, Public Law 98-502, as amended, was enacted to improve the financial
management of State and Local Governments and nonprofit organizations by establishing one
uniform set of auditing and reporting requirements for all Federal award recipients required to
obtain a single audit. OMB Circular A-133 establishes policies that guide implementation of the
Single Audit Act and provides an administrative foundation for uniform audit requirements of
non-Federal entities administering Federal awards. Entities that expend $300,000 ($500,000 for
fiscal years ending after December 31, 2003) are subject to the Single Audit Act and the audit
requirements in OMB Circular A-133 and therefore must have an annual single or program-
specific audit performed under Government Auditing Standards and submit a complete reporting
package to the Federal Audit Clearinghouse.

We reviewed the DCAA and PWC audit of Syracuse Research Corporation for FY 2006 and the
resulting reporting package that was submitted to the Federal Audit Clearinghouse on June 29,
2007, using the 1999 edition of the “Uniform Quality Control Guide for the A-133 Audits” (the
Guide). The Guide applies to any single audit that is subject to the requirements of OMB
Circular A-133 and is the approved President’s Council on Integrity and Efficiency checklist
used for performing the quality control reviews. We performed the review from August through
November 2007. The review focused on the following qualitative aspects of the single audit:

            •     Qualification of Auditors,

            •     Independence,

            •     Due Professional Care,

            •     Planning and Supervision,

            •     Internal Control and Compliance testing,

            •     Schedule of Expenditures of Federal Awards, and

            •     Data Collection Form.

Prior Quality Control Reviews
Since October 1, 2002, we have performed three quality control reviews of DCAA and PWC
OMB Circular A-133 audits. All three reports contained deficiencies resulting in findings and
recommendations on audit planning, performance, and documentation. Unrestricted IG DoD
reports can be accessed at http://www.dodig.osd.mil/audit/reports.




                                               9
IG DoD Reports

     IG DoD Report No. D-2006-6-002, “Report on Quality Control Review of the
     PricewaterhouseCoopers LLP and the Defense Contract Audit Agency Office of
     Management and Budget Circular A-133 Audit Report of the RAND Corporation, Fiscal
     Year Ended September 29, 2002,” December 16, 2005

     IG DoD Report No. D-2004-6-007, “Quality Control Review of PricewaterhouseCoopers,
     LLP and the Defense Contract Audit Agency Office of Management and Budget Circular
     A-133 Audit Report of the Institute for Defense Analyses, Fiscal Year Ended September
     28, 2001,” July 16, 2004

     IG DoD Report No. D-2004-6-002, “Quality Control Review of PricewaterhouseCoopers,
     LLP and the Defense Contract Audit Agency Office of Management and Budget Circular
     A-133 Audit Report of the MITRE Corporation, Fiscal Year Ended September 30, 2001,”
     October 21, 2003




                                          10
Appendix B. Compliance Requirements


      OMB Circular A-133 Compliance             Applicable   Not Applicable
             Requirements

Activities Allowed/Unallowed                        X

Allowable Costs/Cost Principles                     X

Cash Management                                     X

Davis-Bacon Act                                                    X

Eligibility                                                        X

Equipment and Real Property Management              X

Matching, Level of Effort, Earmarking               X

Period of Availability of Federal Funds             X

Procurement, Suspension, and Debarment              X

Program Income                                                     X

Real Property Acquisition and Relocation                           X
Assistance
Reporting                                           X

Subrecipient Monitoring                             X

Special Tests and Provisions                        X




                                           11
Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Other Defense Organizations
Director, Defense Contract Audit Agency
  Regional Director, Defense Contract Audit Agency, Northeastern Region
  Branch Manager, Defense Contract Audit Agency, Upstate New York Branch Office

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Other Federal Agencies
Office of the Inspector General, Environmental Protection Agency
Office of the Inspector General, Department of Health and Human Services
Office of the Inspector General, Department of Energy
Office of the Inspector General, Department of Justice
Office of the Inspector General, Department of Agriculture
Office of the Inspector General, Department of Interior
Office of the Inspector General, Department of Homeland Security

Non-Government Organizations
Audit Committee, Syracuse Research Corporation
Chief Financial Officer, Syracuse Research Corporation
Partner, PricewaterhouseCoopers, LLP


                                             12
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          13
Defense Contract Audit Agency Comments




                  15
16
17
18
19
20
21
22
